           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


THE ROLE OF NATIONAL HEARING CENTERS
  IN REDUCING THE HEARINGS BACKLOG

    April 2012       A-12-11-11147




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   ¦ Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
   ¦   Promote economy, effectiveness, and efficiency within the agency.
   ¦   Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
   ¦   Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
   ¦   Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

   ¦ Independence to determine what reviews to perform.
   ¦ Access to all information necessary for the reviews.
   ¦ Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      April 3, 2012                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Role of National Hearing Centers in Reducing the Hearings Backlog
           (A-12-11-11147)


           OBJECTIVE
           The objective of our review was to assess the role of the National Hearing Centers
           (NHC) in reducing the hearings backlog.

           BACKGROUND
           The NHCs are part of the Social Security Administration’s (SSA) strategy to address the
           pending hearings backlog and reduce case processing time by increasing adjudicatory
           capacity and efficiency with a focus on an electronic hearings process. Between
           October 2007 and July 2010, the Office of Disability Adjudication and Review (ODAR)
           opened five NHCs (see Table 1). ODAR based the NHCs’ locations, in part, on the
           availability of space nationwide, which resulted in ODAR’s ability to get those facilities
           operational in a shorter timeframe. In addition, ODAR decided that having the NHCs in
           different time zones would ensure more effective scheduling. As of the date of this
           review, ODAR had no plans to open additional NHCs.

                                         Table 1: NHC Opening Dates
                                    Location                 Operations Started
                           Falls Church, Virginia               October 2007
                           Albuquerque, New Mexico               March 2009
                           Chicago, Illinois                     June 2009
                           Baltimore, Maryland                    July 2009
                           St. Louis, Missouri                    July 2010
Page 2 - The Commissioner


Heavily backlogged hearing offices across the country transfer cases to the NHCs.
Administrative law judges (ALJ) at the NHCs use video technology to conduct all their
hearings. ALJs at the NHCs conduct video hearings with claimants in hearing offices
and other sites nationwide. 1 Video terminals are required at two sites: the claimant’s
location and the NHC. 2 A claimant has the option of declining a video hearing and
having his or her case returned to the originating hearing office for processing.

To meet the objective of our audit, we interviewed management and staff at ODAR
Headquarters and all five NHCs to discuss how the NHCs were being managed and
used. We also interviewed managers at the five hearing offices that transferred large
volumes of cases to the NHCs to learn about the benefits as well as any challenges to
the process. To assess the NHC’s role in reducing the pending hearings backlog, we
reviewed closed cases from Fiscal Years (FY) 2009 through 2011 to identify trends in
ALJ disposition rates,3 pending backlogs, and average processing times. See
Appendix B for a further discussion of our scope and methodology.

RESULTS OF REVIEW
During FYs 2010 and 2011, ODAR’s 5 NHCs processed more than 56,000 hearings to
assist backlogged hearing offices with older cases. The Chicago Region transferred the
highest number of cases during this period, about 50 percent of all cases the NHCs
received. These transfers allowed the Chicago Region to address case backlogs while
new hearing offices were being constructed to permanently address workload needs.
We found the ALJs working in the NHCs had a higher than average disposition rate that
may have related to such factors as (1) a higher decision writer-to-ALJ ratio, (2) how
attorneys are supervised, (3) the lack of travel to remote sites, (4) useful pre-hearing
briefs, and (5) the processing of NHC remands at the hearing office level. However, the
NHCs identified a number of challenges that may limit the effectiveness of the NHC
model, including (1) availability of video capacity, (2) difficulties scheduling experts, and
(3) claimants declining video hearings. The assisted hearing offices we contacted
stated case transfers to the NHCs led to fewer pending cases and improved processing
times. The hearing offices also had a few concerns, including their processing of NHC
remands as well as the extra work related to declined video hearings.




1
  In conjunction with the NHC initiative, ODAR established the Video Teleconferencing (VTC) initiative.
The goals of this initiative were to boost claimant satisfaction, provide more timely hearings, save ALJ
travel time, process cases faster, and realize a greater ratio of hearings scheduled to hearings held. For
more information on ODAR’s VTC initiative, see SSA, Office of the Inspector General, Use of Video
Hearings to Reduce the Hearing Case Backlog (A-05-08-18070), April 2011.
2
    Other parties, such as medical and vocational experts, may participate by video as well.
3
    ALJ disposition rates are the number of ALJ dispositions per day per available ALJ.
Page 3 - The Commissioner


NHC ASSISTANCE TO HEARING OFFICES

In FYs 2010 and 2011, the NHCs processed approximately 56,000 hearing cases (see
Figure 1). During this same period, SSA’s 10 regions transferred approximately
82,000 cases to the NHCs. 4

                                                Figure 1: NHC Dispositions
                                                   (FYs 2009 Through 2011)

                                                                                33,324

                                     35,000
                                                                22,760
            Number of Dispositions




                                     30,000
                                     25,000
                                     20,000
                                                 9,162
                                     15,000
                                     10,000
                                      5,000
                                         0
                                              2009          2010             2011
                                                          Fiscal Year

The NHCs’ function is to alleviate nation-wide backlogs by processing workloads from
heavily backlogged hearing offices. ODAR’s Office of the Chief Administrative Law
Judge (OCALJ) oversees the workloads at the five NHCs. By examining hearing office
backlogs and determining the amount of video capacity, OCALJ identifies the hearing
offices that are eligible to transfer cases to the NHCs. OCALJ works with the regions
and hearing offices in managing the case transfers to the NHCs.

Initially, hearing offices transferred their oldest cases to the NHCs.5 However,
according to NHC management, hearing offices are now transferring newer cases to the
NHCs. As the ages of the cases have continued to decrease nationwide, the ages of
the cases transferred to the NHCs have continued to decrease. Besides transferring a
large number of cases to the NHCs, ODAR has addressed backlogs with new hearing
offices. During FYs 2010 and 2011, ODAR added or expanded 28 hearing offices,



4
 The remaining 26,000 cases are part of the NHC’s pending workload, which are in various stages of
processing. See Appendix C for a further discussion of regional dispositions, pending cases, and
average processing times.
5
  Besides the NHC initiative, ODAR’s Aged Claim initiative focused hearing office efforts on eliminating
the oldest cases from the backlog. ODAR started the initiative in FY 2007 by targeting cases that were
over 1,000 days old. In FY 2012, hearing offices are targeting cases that will be 725 days old or older.
ODAR started FY 2012 with 113,593 cases in this age category. See SSA OIG, Aged Claims at the
Hearing Level (A-12-18071), September 2009.
Page 4 - The Commissioner


satellite offices, and National Case Assistance Centers (NCAC) 6 affecting all 10 regions
(see Appendix D). OCALJ directed NHC resources to address shortfalls in capacity
while ODAR was adding new hearing offices and related capacity to the regions.

While every region transferred cases to the NHCs, the Chicago Region 7 transferred
about 41,000 cases—approximately 50 percent of the total transfers to the NHCs—
during FYs 2010 and 2011. The Chicago Region would have had over 150,000 pending
cases at the end of FY 2011 without the NHC transfers (see Figure 2). The Atlanta
Region, the largest region in the nation, would have had over 14,000 more pending
cases without the NHC transfers.

                 Figure 2: Regional Pending Cases with Case Transfers to NHCs
                                     at the End of FY 2011
                                   (Includes all Case Transfers in FYs 2010 and 2011)


                     Boston
                  New York
               Philadelphia
                    Atlanta
    Regions




                    Chicago
                      Dallas
                Kansas City
                    Denver
              San Francisco
                     Seattle
                               0           50,000         100,000        150,000        200,000        250,000
                                                          Number of Dispositions

                   FY 2011 Pending Cases            FY 2011 Additional Pending Cases Without NHC Transfers


In the Chicago Region, the NHCs have focused their efforts on assisting backlogged
offices in Ohio and Michigan. Hearing offices in Ohio and Michigan transferred over
27,000 cases to the NHCs, approximately 33 percent of total transfers in FYs 2010 and
2011 (see Table 2). Altogether, 89 hearings offices transferred cases to the NHCs over
the last 2 years from SSA’s 10 regions.




6
 NCACs provide backlog support to multiple components in ODAR as needed, including assisting
hearing offices and NHCs with decision writing and case pulling.
7
 The Chicago Region covers Illinois, Indiana, Michigan, Minnesota, Ohio, and Wisconsin. It is the
second largest region in the country in terms of population.
Page 5 - The Commissioner


                       Table 2: Case Transfers from Ohio and Michigan
                                  Hearing Offices to NHCs
                                 (Cases Transferred in FYs 2010 and 2011)
                                                                Number of Cases
                              Hearing Office Location             Transferred
                      Columbus, Ohio                                  5,774
                      Cleveland, Ohio                                 5,621
                      Flint, Michigan                                 3,578
                      Oak Park, Michigan                              3,555
                      Dayton, Ohio                                    3,152
                      Toledo, Ohio                                    2,604
                      Detroit, Michigan                               2,566
                      Lansing, Michigan                               2,031
                      Cincinnati, Ohio                                1,931
                      Akron, Ohio                                         1
                      Grand Rapids, Michigan                              1
                      Total                                           27,259

In FY 2010, ODAR established six new hearing offices in the Chicago Region, including
two new hearing offices in Akron and Toledo, Ohio, as well as two additional hearing
offices in Livonia and Mt. Pleasant, Michigan. 8 These new hearing offices can assist
with State backlogs previously handled by the NHCs. 9

ALJ PRODUCTIVITY AT NHCs

ALJs working in the NHCs had an average disposition rate of 2.77 in FY 2011, about
15 percent higher than the average national disposition rate of 2.42 (see Figure 3). This
higher disposition rate may have related to a number of factors at the NHCs, including
(1) higher decision writer-to-ALJ ratios, (2) ALJ supervision of attorneys, (3) no travel to
remote sites, (4) useful pre-hearing briefs, and (5) lack of remands.




8
    See Appendix D for more information on the new hearing offices.
9
 Hearing offices from other regions also assisted with these workloads via the service area realignment
(SAR) initiative that ODAR implemented in FY 2008. ODAR implemented the SAR initiative using a two-
phased strategy. The first phase included permanent interregional transfer of claims designed to
decrease aged pending workloads at heavily impacted offices. Once the flow of transfer claims began,
phase two involved realigning SSA field offices with high workloads to hearing offices with lower
workloads.
Page 6 - The Commissioner


                              Figure 3: FY 2011 ALJ Disposition Rate by Region

                        Region I: Boston
                    Region II: New York
                 Region III: Philadelphia
                      Region IV: Atlanta
                      Region V: Chicago
      Regions




                       Region VI: Dallas
                 Region VII: Kansas City
                     Region VIII: Denver
                Region IX: San Francisco
                       Region X: Seattle
                National Hearing Center
                                            2                  2.3                     2.6              2.9
                                                             ALJ Dispositions per Day per ALJ

Decision Writer-to-ALJ Ratio

The higher NHC ALJ disposition rate may have been related to a number of factors,
including a higher decision writer-to-ALJ ratio. As shown in Table 3, the NHC’s overall
staffing ratio 10 ranged from 4.00 to 5.22, which is consistent with ODAR’s goal of
maintaining an overall staffing ratio of 4.5 per region. 11 However, the NHCs’ decision
writer-to-ALJ ratio was higher than any of the regions (see Table 4). In FY 2011, the
NHC average decision writer-to-ALJ ratio was 2.90, whereas only 1 of the 10 regions
had an average ratio above 2.

                    Table 3: FY 2011 Staffing Levels at the National Hearing Centers
                                                 Full-Time      Decision               Support      Overall
                                                Permanent      Writer-to-ALJ         Staff-to-ALJ   Staffing
                   NHC Office                      ALJs            Ratio                Ratio        Ratio
     St. Louis                                     16                2.63                2.06        4.69
     Chicago                                       16                2.69                1.31        4.00
     Baltimore                                     12                3.00                1.42        4.42
     Falls Church                                  9                 3.78                1.44        5.22
     Albuquerque                                   5                 2.00                2.20        4.20
     Totals/Weighted Averages                      58                2.90                 1.78       4.67




10
   The overall staffing ratio is calculated by adding the decision writer-to-ALJ ratio with the support staff-
to-ALJ ratio.
11
  According to NHC managers, NHCs are held to the Commissioner’s goal of having overall staffing
ratios of 4.5 staff per ALJ.
Page 7 - The Commissioner


     Table 4: Comparison of FY 2011 NHC Staffing Versus ODAR Regional Staffing
                                         Full-Time        Decision           Support           Overall
                                        Permanent         Writer-to-       Staff-to-ALJ        Staffing
                Region                     ALJs           ALJ Ratio           Ratio             Ratio1
     Region I: Boston                        59              1.80               2.76             4.55
     Region II: New York                    132              1.66               2.92             4.58
     Region III: Philadelphia               156              1.61               2.88             4.49
     Region IV: Atlanta                     364              1.88               3.05             4.93
     Region V: Chicago                      239              1.60               3.07             4.66
     Region VI: Dallas                      157              1.97               2.97             4.93
     Region VII: Kansas City                 70              1.73               3.15             4.88
     Region VIII: Denver                     35              1.77               3.17             4.94
     Region IX: San Francisco               156              1.75               3.14             4.88
     Region X: Seattle                       51              2.21               2.81             5.02
     National Hearing Centers                58              2.90               1.78             4.67
Note 1: May not add across rows due to rounding.

The Agency’s goal is to maintain a decision writer-to-ALJ staffing ratio of 1.85 decision
writers per ALJ in each hearing office. Our earlier report 12 found that hearing offices
with higher decision writer-to-ALJ ratios had higher productivity than hearing offices with
lower ratios. However, to maintain the overall staffing ratio of 4.5, the higher decision
writer-to-ALJ ratios in the NHC means that the NHCs must operate with a lower support
staff ratio. The support staff-to-ALJ ratio for the NHCs averaged 1.78, while the regions
averaged 2.99. In our discussions with NHC managers, we learned that this lower
support staff ratio was by design.

To ensure that ALJs in the NHCs had enough cases pulled 13 for a hearing, NHC
managers transferred cases among the NHCs to balance workloads. While having the
hearing offices pull cases before transferring them may have assisted the NHCs, the
fact that the hearing offices were using the NHCs indicated backlogged cases were
already tying up their staff.

ALJ Supervision of Attorneys

ALJs at the NHCs directly supervise attorney decision writers. 14 The 12 NHC ALJs we
interviewed believed this supervisory relationship had created a trust factor between the
parties, thereby allowing the attorneys to develop a good understanding of their
supervising ALJ’s preferences. The ALJs at a typical hearing office are part of a group
that uses a pool of attorneys led by a group supervisor. Hearing office attorneys are

12
     SSA OIG, Hearing Office Performance and Staffing (A-12-08-28088), February 2010.
13
  “Pulling” describes the process of preparing a disability case file for a hearing. Staff organizes medical
documents chronologically, numbers documents, removes duplicate documents, ensures all pertinent
documents are appropriately labeled, and prepares an exhibit list of pertinent documents.
14
     See Appendix E for organization charts for the NHC and a hearing office.
Page 8 - The Commissioner


rotated among the ALJs in the group. However, since the ALJs at the hearing offices
are not managers, the NHC model of direct reporting cannot be replicated in the hearing
offices. 15

ALJ Travel to Remote Sites

Unlike ALJs at hearing offices, ALJs at the NHC focus on video hearings only and do
not travel to remote sites to hold hearings. When ALJs travel to remote sites, they have
less time to process and hear cases. This additional time spent at the office rather than
in travel status may contribute to the higher productivity of NHC ALJs. 16

Pre-Hearing Briefs

Of the 12 NHC ALJs we interviewed, 10 stated pre-hearing briefs prepared by their
attorneys were more useful than similar worksheets used at hearing offices. Pre-
hearing briefs provide extensive information on the claimant, including education,
medical condition, past relevant work, and impairments found by the disability
determination services. In addition, the brief provides the attorney’s recommendation
on the decision. 17




15
   Shortly after the NHCs were established, the Association of ALJs (AALJ), a national union representing
ALJs, challenged the Agency’s policy of precluding NHC ALJs from the bargaining unit. In February
2010, the Federal Labor Relations Authority found that NHC ALJs in Albuquerque, New Mexico, and Falls
Church, Virginia, are supervisors within the meaning of section 7103 (a)(10) of the Federal Service Labor-
Management Relations Statute, 5 U.S.C. § 7103(a)(10). While the AALJ appealed this decision, it was
upheld in June 2010. See Social Security Administration, Office of Disability Adjudication and Review,
Baltimore, Maryland and Association of Administrative Law Judges International Federation of
Professional and Technical Engineers, AFL-CIO (SSA and AALJ), FLRA Case No. WA-RP-09-0057, 64
FLRA 896, Order Denying Application for Review (June 22, 2010). As a result of the FLRA decision, the
NHC ALJs are precluded from the AALJ bargaining unit at the Albuquerque and Falls Church NHCs. The
AALJ also challenged SSA’s policy of precluding NHC ALJs from the bargaining units at the other three
NHCs (Baltimore, Maryland; Chicago, Illinois, and St. Louis, Missouri). The FLRA again decided in favor
of the Agency. See SSA and AALJ, FLRA Case No. WA-RP-11-0022, Decision and Order Granting
Petition Seeking Clarification of Unit (February 29, 2012).

16
     This situation may change in the future, as we note later in this report.
17
  In our July 2011 report, Senior Attorney Adjudicator Program (A-12-10-11018), we recommended that
the Agency provide senior attorney adjudicators with additional guidance and tools, such as a modified
Attorney Adjudicator Worksheet, to ensure senior attorney adjudicators highlight pertinent case details
when a case cannot be decided as an on-the-record (OTR) decision.
Page 9 - The Commissioner


Remands

According to SSA policy, Appeals Council remands,18 including those generated by the
Federal courts, are assigned to the same ALJ who issued the decision or dismissal.
However, at the time of our review, the NHC ALJs did not process their own remands.
Instead, they were returned to the hearing office assisted by the NHC, and ALJs in that
office were expected to process the remand. As a result, NHC ALJs had more time to
dedicate to new cases.

On December 15, 2011, ODAR’s Chief ALJ sent a memorandum to the Regional Chief
ALJs announcing a modification to the NHC remand policy. 19 The memorandum stated
that, “Effective January 3, 2012, all hearing offices that are currently receiving
assistance from the NHC, may route remands of decisions issued by an NHC ALJ to the
appropriate NHC location.” The hearing offices were instructed to take the following
steps when they receive an electronic remand issued by an NHC ALJ.

1. Determine whether the NHC is still providing assistance to the hearing office.
2. Verify that the NHC ALJ who issued the decision is on duty at the NHC.
3. If the remand meets both requirements, transfer the remand to the NHC.

Furthermore, if the claimant declines a video hearing, the NHC will transfer the remand
back to the servicing office for an in-person hearing.

NHC CHALLENGES

We interviewed NHC managers at Headquarters as well as managers, ALJs, and staff
at all five NHCs to learn about the challenges NHCs face when processing case
transfers. The challenges they identified included (1) availability of video capacity,
(2) conflicts when scheduling experts, and (3) claimants declining video hearings.

Video Capacity

NHC managers and ALJs told us they are facing a lack of video capacity that prevents
the NHCs from assisting some heavily backlogged offices. While the NHC ALJs often



18
   Common reasons for remands include (1) additional claimant or witness testimony is needed; (2) the
claimant did not receive a fair hearing; (3) the ALJ issued the OTR decision but testimony is necessary;
(4) evidence from an expert witness is needed; (5) additional development is needed—for example,
consultative examinations, hospital reports, or evidence on work activity; (6) the ALJ's decisional rationale
is insufficient, and (7) the ALJ applied the wrong law. See SSA, Hearings, Appeals and Litigation Law
(HALLEX) manual I-3-7-1—General.
19
 Remands to National Hearing Center (NHC) Administrative Law Judges (ALJ) – INFORMATION,
memorandum from Chief ALJ Debra Bice to Regional Chief ALJs, December 15, 2011.
Page 10 - The Commissioner


use permanent remote sites 20 to hold video hearings, these sites are often used for
in-person hearings, leaving less space for video hearings. Use of the permanent
remote sites increased after the Agency started closing its temporary remote sites 21 in
March 2011.

The NHC managers at Headquarters said the claimant-only video (COV) model for
video hearings has been successful in the Chicago Region. COVs are small hearing
rooms that contain desktop video equipment and are large enough to hold the claimant,
claimant representative, hearing reporter, and experts, if required. COVs are used in a
number of regions.22 The Agency also established the Representative Video Project
(RVP), which allows law firms to place video equipment in their own offices23 to
increase video capacity.

Scheduling Experts and Claimant Representatives

NHCs and hearing offices schedule the same experts, which leads to scheduling
conflicts. Cases being heard in the NHCs and hearing offices often require the use of
the same medical and vocational experts who assist the ALJ in evaluating evidence.
According to NHC managers, the NHCs can use any expert from any region, but they
first try to schedule the experts in the area where the claimant is located. The
scheduling conflict with experts is more acute in metropolitan areas with multiple
hearing offices.24

NHC managers noted that scheduling claimant representatives is another challenge,
especially in areas with multiple hearing offices. Claimant representatives in these
areas might have many clients appearing in multiple hearing offices with multiple ALJs.
Schedulers in the NHCs have tried to alleviate this problem by scheduling experts and
claimant representatives months in advance.



20
  A permanent remote site is a space that has been assigned to or leased for ODAR by the General
Services Administration (GSA) in a city within the defined service area of a hearing office. Some
permanent remote sites are co-located with SSA field offices.
21
  A temporary remote site is a location where hearings are held in space not under a GSA lease or
assignment to ODAR. Typically, such sites are in spaces rented under a daily or weekly rate under local
purchase authority or in spaces made available to ODAR at no charge.
22
   For more discussion on the use of COVs and other video options, see SSA OIG, Use of Video
Hearings to Reduce the Hearing Case Backlog (A-05-08-18070), April 2011. This report also noted that
video equipment was largely unused in a number of hearing offices because the hearing rooms were
being used for in-person hearings.
23
     SSA OIG, Representative Video Project (A-05-09-19101), August 2011.
24
  We discussed the difficulties with scheduling experts in our February 2011 report, Office of Disability
Adjudication and Review's Scheduling Procedures for Hearings (A-12-10-20169). We are also
completing another review related to vocational experts—Availability and Use of Vocational Experts
(A-12-11-11124).
Page 11 - The Commissioner


Declined Video Hearings

ODAR estimated that in FY 2011, over 1,000 NHC claims were returned to hearing
offices after the claimant or the claimant representative declined the video hearing. 25
When a claimant or a claimant representative declines a video hearing by the NHC, the
NHC sends the case back to the original hearing office for processing, which leads to
extra processing times in the hearing offices. NHC managers were concerned that SSA
regulations allowed claimants or their representatives to decline video hearings at any
time, even on the day of the hearing. ODAR managers suspect that some claimant
representatives declined video hearings after they discovered the name of the ALJ
assigned to hear their case and researched the ALJ’s published allowance rate. 26 This
activity is sometimes referred to as “judge shopping.”

NHC managers at Headquarters explained that ODAR was changing the hearing
notices27 so they will no longer include the name of the ALJ who is assigned to the
case. 28 In addition, they are contemplating having NHC ALJs travel to hearing offices
and remote sites to hold hearings. In this way, claimants will remain on their hearing
dockets.

HEARING OFFICE BENEFITS AND CHALLENGES

We spoke to hearing office directors (HOD) at five hearings offices that transferred large
volumes of cases to the NHCs to learn about both the benefits and challenges related to
working with the NHCs. 29 HODs cited such benefits as fewer pending cases and
improved processing times. They cited challenges including extra processing related to
NHC remands and declined video hearings.

Hearing Office Benefits

All five HODs stated that the main benefit was a reduction in the number of pending
cases per ALJ. In addition, two HODs stated that their hearing offices experienced

25
   ODAR noted that the actual number of declined video hearings in FY 2011 was higher because not all
of these cases were being properly coded in CPMS.
26
  The DATA.gov Website provides individual ALJ disposition data and allowance rates, as well as
hearing office information, such as total processing time and pending case levels.
27
  See HALLEX I-2-3.15—Notice of Hearing. The ALJ or the hearing office staff must send notice of the
hearing to the claimant and representative at least 20 days before the hearing.
28
  This policy change could affect situations where the ALJ should withdraw from a hearing in cases
where he or she may be prejudiced or partial with respect to any party or has an interest in the matter
pending for decision. See 20 C.F.R. §§ 404.940 and 416.1440 Disqualification of the Administrative Law
Judge. To the extent that such a situation exists, the new policy may lead to withdrawals on the day of
the hearing. ODAR management said such ALJ withdrawals are rare.
29
 All 5 hearing offices transferred 1,000 or more cases to the NHCs in FY 2010. See Appendix B for
more information on these hearing offices.
Page 12 - The Commissioner


lower hearing office processing times. The HODs did not interact directly with the NHC
staff but instead worked through their regional offices. The regional management teams
instructed the HODs to transfer their oldest cases to the NHCs, thus lowering the
hearing offices’ average processing time and allowing these offices to focus on newer
cases. The hearing offices were asked to transfer cases meeting the following criteria:
(1) initial hearing; (2) electronic rather than paper folders; (3) not already assigned to an
ALJ; and (4) the oldest cases in the hearing office.

Hearing Office Challenges

The HODs cited two challenges when working with the NHCs; extra processing related
to NHC remands and declined video hearings.

Remanded Cases

All five HODs mentioned NHC-related remanded cases as a challenge to their offices.
As noted previously, hearing office ALJs not associated with particular cases were
expected to respond to remand issues related to NHC ALJs’ decisions. One HOD
explained that ALJs in the NHCs were unaware why their decisions were remanded, so
they were missing a learning opportunity by not processing their own remands.

In our discussions with NHC ALJs, we learned that they were in favor of receiving
remands, also noting that they could learn from these remanded cases. Moreover,
NHC Headquarters managers agreed that having the NHC ALJs process their own
remands would allow them to learn about mistakes they might have made in their initial
decisions. Consistent with this interest, OCALJ implemented a small remand pilot in the
last year to determine whether the NHC ALJs would benefit from processing their own
remand cases. The pilot involved cases transferred from two hearing offices to two
NHCs. As noted earlier, on January 3, 2012, ODAR changed the policy and started
routing remands to the appropriate NHC ALJs, under certain conditions.

Declined Video Hearings

Four of the five HODs mentioned that declined video hearings create processing delays
and extra work for the hearing office staff. One HOD stated that 6 to 9 months may
pass before the declined case is returned to the hearing office. These returned cases
needed to be reworked by a senior case technician and rescheduled for a hearing,
which added time to the process. Moreover, similar to the NHC managers, the HODs
believed some of this behavior related to claimants attempting to choose the ALJs who
will hear their cases. As noted earlier, hearing notices and practices may change,
which may reduce the number of declined video hearings.
Page 13 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
The NHC’s flexibility has allowed ODAR to transfer older cases from some of the most
heavily backlogged offices, thereby assisting those offices in reducing their pending
levels and processing times. In addition, although ALJs at NHCs may have been more
productive because of the NHC’s structure and the underlying processes, some of these
processes may create unintended consequences for the hearing offices assisted.
Moreover, the NHCs face their own challenges, including lack of video capacity,
scheduling difficulties, and declined video hearings. ODAR is taking steps to address a
number of these challenges.

To enhance the NHC model, we recommend that SSA:

1. Monitor video capacity and, as resources permit, consider increasing the number of
   video locations, which may include permanent remote sites, COVs, and RVP
   locations.

2. Ensure steps are taken to prevent claimants from choosing the ALJ hearing their
   case, such as removing the ALJ’s name from all hearing notices and reminding
   schedulers not to reveal the name of the ALJ when asked by a claimant
   representative.

3. Consider modifying the regulations to prevent claimants from declining video
   hearings close to the day of the hearing.

AGENCY COMMENTS
SSA agreed with all three recommendations (see Appendix F).




                                        Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Regional Dispositions, Pending Cases, and Average Processing Times

APPENDIX D – New Offices Opened by Region in Fiscal Years 2010 and 2011

APPENDIX E – Organization Charts - Hearing Office and National Hearing Center

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
AA       Attorney Advisor
AALJ     Association of Administrative Law Judges
ADP      Automated Data Processing
AO       Administrative Officer
ALJ      Administrative Law Judge
CALJ     Chief Administrative Law Judge
C.F.R.   Code of Federal Regulations
COV      Claimant-Only Video
CPMS     Case Processing and Management System
FLRA     Federal Labor Relations Authority
FY       Fiscal Year
GSA      General Services Administration
HALLEX   Hearings, Appeals and Litigation Law Manual
HOD      Hearing Office Director
NCAC     National Case Assistance Center
NHC      National Hearing Center
OCALJ    Office of the Chief Administrative Law Judge
ODAR     Office of Disability Adjudication and Review
OIG      Office of the Inspector General
OTR      On-the-Record
RVP      Representative Video Project
SAR      Service Area Realignment
SSA      Social Security Administration
U.S.C.   United States Code
VTC      Video Teleconferencing
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

·   Reviewed applicable laws and Social Security Administration policies and
    procedures, including the Office of Disability Adjudication and Review’s (ODAR)
    Hearings, Appeals and Litigation Law Manual.

·   Reviewed previous Office of the Inspector General reports.

·   Examined position descriptions of managers and staff working at the National
    Hearing Centers (NHC) and the hearing offices to become familiar with the duties
    and responsibilities of each position.

·   Interviewed NHC managers in ODAR Headquarters, as well as administrative law
    judges (ALJ), managers, and staff at all five NHC offices, to discuss how NHCs are
    managed and operated.

·   Reviewed closed cases from ODAR’s Case Processing and Management System
    (CPMS) from Fiscal Years (FY) 2009 through 2011 to determine the workloads of
    each NHC as well as the assisted hearing offices.

·   Obtained NHC case transfer data from ODAR to identify which hearing offices and
    regions transferred cases to the NHCs in FYs 2009 through 2011.

·   Analyzed CPMS Caseload Analysis Reports and cases transferred to NHCs to
    determine trends in regional performance for dispositions, average processing time,
    and pending case workloads.

·   Interviewed hearing office directors at 5 hearings offices that transferred 1,000 or
    more cases to the NHCs in 2010 to learn about both the benefits and challenges
    related to working with the NHCs. The hearing offices were Bronx, New York; Fort
    Wayne, Indiana; Kansas City, Missouri; Oak Park, Michigan; and Raleigh, North
    Carolina.




                                           B-1
We found that FY 2009 through 2011 CPMS data were sufficiently reliable to meet our
objective. The entity audited was the Office of the Deputy Commissioner for Disability
Adjudication and Review. We conducted this performance audit from February through
November 2011 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.




                                         B-2
                                                                                 Appendix C

Regional Dispositions, Pending Cases, and
Average Processing Times
From the end of Fiscal Year (FY) 2009 to the end of FY 2011, hearing dispositions
increased at 9 of 10 Regions (see Table C-1). Only the Kansas City Region had fewer
dispositions (-6 percent) during this period.

                         Table C-1: Trend in Regional Dispositions
                                        (2009 Versus 2011)
                                          FY 2009       FY 2011             Percent Change in
                Region                  Dispositions  Dispositions            Dispositions
     Region I: Boston                          22,866           29,657                       30%
     Region II: New York                       63,446           67,014                        6%
     Region III: Philadelphia                  74,290           85,441                       15%
     Region IV: Atlanta                       174,843          200,540                       15%
     Region V: Chicago                         94,614          121,123                       28%
     Region VI: Dallas                         89,065           96,339                        8%
     Region VII: Kansas City                   31,463           29,664                       -6%
     Region VIII: Denver                       17,674           21,065                       19%
     Region IX: San Francisco                  65,479           85,334                       30%
     Region X: Seattle                         17,940           24,062                       34%
     Totalsb                                  651,680           760,239                      17%
    Notes: a. Dispositions include cases processed by ALJs and senior attorneys.
           b. Regional totals do not include workloads of National Hearing Center (NHC) located in the
              regions.

Even with the increased dispositions, the Social Security Administration (SSA) faced a
growing backlog of pending cases in FY 2011. Overall, the hearing backlog grew by
about 66,000 cases during this period, with the backlog growing to approximately
771,000 at the end of FY 2011. 1 Three regions experienced double-digit decreases in
their pending workloads, with the Chicago Region experiencing the largest decrease at
11-percent (see Table C-2). Four regions had double-digit increases in their pending
case workload, with the Kansas City Region experiencing the largest increase at
26 percent.




1
  SSA, Accountability and Performance Report for FY 2011. The backlog at the end of FY 2011 increased
to about 787,000 cases based on 53 weeks, rather than the 52 weeks quoted in ODAR’s official count.
As a result, the backlog increased by about 82,000 in FY 2011.


                                                  C-1
                       Table C-2: Trend in Regional Pending Cases
                                         (2009 Versus 2011)
                                      Pending        Pending           Difference in        Percent
             Region                    Cases          Cases                Cases            Change
                                        2009           2011
    Region I: Boston                      28,199            28,047               -152             -1%
    Region II: New York                   65,310            59,071             -6,239            -10%
    Region III: Philadelphia              77,273            87,908             10,635             14%
    Region IV: Atlanta                   188,566           220,558             31,992             17%
    Region V: Chicago                    125,820           111,609            -14,211            -11%
    Region VI: Dallas                     69,971            75,414              5,443              8%
    Region VII: Kansas City               33,001            41,488              8,487             26%
    Region VIII: Denver                   21,544            20,725               -819             -4%
    Region IX: San Francisco              79,419            71,564             -7,855            -10%
    Region X: Seattle                     22,117            24,821              2,704             11%
Note: Regional totals (1) do not include workloads of NHCs located in the regions and (2) represent
      pending cases after case transfers to NHCs.

According to SSA’s FY 2011 Performance and Accountability Report, the national
average processing time for hearing requests decreased from 426 days in FY 2010 to
360 days in FY 2011. Average processing time in each of the 10 regions was below
400 days in FY 2011, with 9 of 10 regions showing improvement from the end of
FY 2009 to the end of FY 2011 (see Table C-3). SSA’s goal was to have an average
processing time of 270 days per case by the end of FY 2013. 2

                      Table C-3: Trends in Average Processing Times
                                    (FY 2009 Versus FY 2011)
                                    FY 2009 Average    FY 2011 Average              Percent Change
                                    Processing Time    Processing Time                 in Average
             Region                      (days)              (days)                 Processing Time
    Region I: Boston                        356                     368                             3%
    Region II: New York                     465                     362                           -22%
    Region III: Philadelphia                402                     352                           -12%
    Region IV: Atlanta                      528                     351                           -34%
    Region V: Chicago                       615                     389                           -37%
    Region VI: Dallas                       398                     295                           -26%
    Region VII: Kansas City                 531                     384                           -28%
    Region VIII: Denver                     447                     395                           -12%
    Region IX: San Francisco                472                     366                           -22%
    Region X: Seattle                       531                     380                           -28%
Note: Regional figures represent processing times after transfers to NHCs




2
    Id.


                                                  C-2
                                                                              Appendix D

New Offices Opened by Region in Fiscal Years
2010 and 2011
           Region                      Office             Type of Office         Opening Date
 Region I: Boston                 Lawrence, MA           Hearing Office             August 2011
 Region II: New York              Jersey City, NJ        Hearing Office               July 2011
                                                         National Case
 Region III: Philadelphia           McLean, VA          Assistance Center             June 2010
                                                            (NCAC) 1
                                  Covington, GA          Hearing Office        September 2010
                                 Fayetteville, NC        Hearing Office        September 2010
                                St Petersburg, FL        Hearing Office             June 2010
 Region IV: Atlanta              Tallahassee, FL         Hearing Office        September 2010
                                   Ft Myers, FL          Satellite Office            July 2010
                                   Augusta, GA           Hearing Office        September 2011
                                   Franklin, TN          Hearing Office        September 2011
                                    Akron, OH            Hearing Office           August 2010
                                    Livonia, MI          Hearing Office           August 2010
                                   Madison, WI           Hearing Office           August 2010
 Region V: Chicago
                                 Mt Pleasant, MI         Hearing Office        September 2010
                                    Toledo, OH           Hearing Office           August 2010
                                  Valparaiso, IN         Hearing Office        September 2010
                                Rio Grande Valley,
 Region VI: Dallas                                        Satellite Office     September 2010
                                        TX
                                   Topeka, KS             Hearing Office              July 2010
 Region VII: Kansas City          St. Louis, MO               NCAC                    July 2010
                                  Columbia, MO            Hearing Office            August 2011
 Region VIII: Denver             Sioux Falls, SD         Satellite Office -         August 2010
                                                           Expansion
 Region IX: San Francisco         Las Vegas, NV          Hearing Office -              July 2010
                                                           Expansion/
                                                            relocation
                                 Phoenix (N), AZ          Hearing Office            June 2010
                                Moreno Valley, CA         Hearing Office       September 2011
                                    Reno, NV              Hearing Office       September 2011
 Region X: Seattle               Anchorage, AK            Hearing Office        February 2010
                                    Boise, ID            Satellite Office      September 2010
                                  Tacoma, WA              Hearing Office          August 2011
Note: NCACs provide backlog support to multiple components within ODAR as needed, including
      assistance hearing offices and NHCs with decision writing and case pulling. The McLean NCAC
      was consolidated with the St. Louis NCAC in August 2011.
                                    Appendix E

Organization Charts – Hearing Office and National
Hearing Center
                 Hearing Office




                       E-1
National Hearing Center




          E-2
    NATIONAL HEARING CENTER POSITION DESCRIPTIONS

         Title                               Position Description

Hearing Center Chief     The Hearing Center CALJ provides leadership and
Administrative Law       administrative direction to the administrative law judges
Judge (CALJ)             (ALJ) in the NHC and has administrative and
                         managerial responsibility for the support staff.
Administrative Officer   The AO serves as the principle management advisor to
(AO)                     the Hearing Center CALJ. The AO also serves as the
                         first- and second-line supervisor providing leadership,
                         guidance, and direction to subordinate employees
                         engaged in providing program and technical support to
                         the ALJs and attorney advisors (AA) in processing
                         requests for hearings.
Administrative Law       An ALJ primarily holds hearings and issues decisions
Judge (ALJ)              on electronic cases transferred to the hearing center.
                         The ALJ may supervise one or more attorney advisor.
Attorney Advisor (AA)    The AA renders advice and assistance to the ALJ in
                         pre-hearing development and preparation of cases for
                         hearing, post-hearing development, and other post-
                         hearing actions. The AA analyzes, researches, and
                         develops cases, while formulating and drafting
                         comprehensive decisions for the ALJ.
Supervisory Case         The supervisory case manager provides guidance and
Manager                  direction to subordinate employees engaged in
                         providing program and technical support to ALJs and
                         AAs in processing claims requesting entitlement to
                         Social Security benefits.
Case                     The case manager provides program and technical
Manager/Paralegal        support to ALJs and AAs in processing requests for
Specialist               hearings. The case manager reviews and analyzes
                         cases to determine whether the ALJ should dismiss the
                         request for hearing hold a hearing or make a decision
                         based on the record. Cases assigned to the case
                         manager remain with the case manager until final
                         adjudication and release.
Legal Assistant          The legal assistant provides legal and technical support
                         to ALJs and other technical and professional positions
                         in the processing of entitlement cases. The legal
                         assistant is responsible for developing and processing a
                         request for hearing case from its receipt in the office to
                         its completion, independently performing a wide range
                         of case development actions.



                                       E-3
         Title                               Position Description

Administrative Assistant   The administrative assistant is responsible for
                           providing day-to-day administrative management
                           services essential for the operation of the hearing
                           office. These services include aspects of budget
                           execution and formulation, personnel administration,
                           procurement and supply, contract administration,
                           travel, payroll services, and reports management.
Computer Assistant         The computer assistant serves as the primary advisor
                           to management in the use of automated data
                           processing (ADP) systems with the responsibility for
                           oversight, management and maintenance of ADP
                           systems in a multi-operating system environment and
                           as liaison with vendor representatives. This
                           environment entails programming and processing as
                           well as administration and management of word
                           processing, data processing, telecommunications,
                           batch processing, database management/
                           programming, and security.




                                       E-4
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      March 1, 2012                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Role of National Hearing Centers in
           Reducing the Hearings Backlog” (A-12-11-11147)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas at (410) 966-6784.

           Attachment




                                                          F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE ROLE OF NATIONAL HEARING CENTERS IN REDUCING THE HEARINGS
BACKLOG” (A-12-11-11147)

Recommendation 1

Monitor video capacity, and as resources permit, consider increasing the number of video
locations, which may include permanent remote sites, Claimant Only Videos, and Representative
Video Project locations.

Response

We agree.

Recommendation 2

Ensure steps are taken to prevent claimants from choosing the administrative law judge (ALJ)
hearing their case, such as removing the ALJ’s name from all hearing notices and reminding
schedulers not to reveal the name of the ALJ when asked by a claimant representative.

Response

We agree.

Recommendation 3

Consider modifying the regulations to prevent claimants from declining video hearings close to
the day of the hearing.

Response

We agree.




                                              F-2
                                                                         Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Nicholas Milanek, Audit Manager, Falls Church Audit Office

Acknowledgments

In addition to those named above:

   Parham Price, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-12-11-11147.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
